                                                U.S. Department of Justice
                                                United States Attorney
                                                Western District of New York

                                                Further inquiries: (716) 843-5814



                                               138 Delaware Avenue
                                               Buffalo, New York 14202




PRESS RELEASE
                                                  July 2, 2003


             RE:    UNITED STATES v. LISA HERRMANN


      United States Attorney Michael A. Battle announced today that Lisa Herrmann, age

35, of Olean, New York, pled guilty before United States District Judge William M. Skretny

to a felony charge of embezzling federally guaranteed student loan funds. The maximum

penalty is five years imprisonment and a fine of $250,000.



      Assistant U.S. Attorney Marie P. Grisanti said the defendant embezzled $182,437.50

in student loan money from July of 1998 through June of 2002.



      Ms. Grisanti stated that the defendant received student loan funds as a result of

false applications, which stated that Lisa Herrmann and others were students attending

Saint Francis School for Practical Nursing, when she knew that the persons named on the

loan applications were not students attending the school.
                                                                                     -2-

      Ms. Grisanti said this investigation is related to the prosecution of Amy Schachter

of Olean who pled guilty before Judge Skretny on June 3, 2003.



      The guilty plea was the culmination of an investigation by the United States

Department of Education, Office of Inspector General, under the direction of Special Agent

in Charge G.E. Mathison.



      Sentencing is scheduled for November 6, 2003, at 9:00 a.m. before Judge Skretny.

                                          ***
